Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MEDICARE PAYMENTS IN 2007
  FOR MEDICAL EQUIPMENT AND
  SUPPLY CLAIMS WITH INVALID
    OR INACTIVE REFERRING
     PHYSICIAN IDENTIFIERS




                    Daniel R. Levinson
                     Inspector General

                      February 2009
                     OEI-04-08-00470
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVE
                  To determine the extent to which Medicare paid medical equipment and
                  supply claims in 2007 submitted with (1) invalid or inactive unique
                  physician identification numbers (UPIN) or (2) invalid referring
                  physician national provider identifiers (NPI).


                  BACKGROUND
                  Medicare beneficiaries are eligible to receive medical equipment and
                  supplies deemed medically necessary by a physician under Medicare
                  Part B coverage. In 2007, Medicare allowed almost $11 billion for
                  medical equipment and supplies. The Consolidated Omnibus Budget
                  Reconciliation Act of 1985 required the Centers for Medicare &
                  Medicaid Services (CMS) to establish UPINs for all physicians who
                  provide services to Medicare beneficiaries. A physician was allowed to
                  obtain only one UPIN, but a UPIN may have been associated with more
                  than one practice setting (i.e., location where a physician provides
                  services).
                  Medicare Claims Processing Using UPINs
                  Providers of medical equipment and supplies obtain reimbursement for
                  items that they provide to Medicare beneficiaries by submitting claims
                  to the CMS contractors servicing their areas. Billing suppliers
                  identified themselves on claims using provider identification numbers.
                  Medicare instructions also required suppliers to provide the UPIN of the
                  referring physician (i.e., the physician who ordered the equipment
                  and/or supplies) on claims. Medicare payments for medical equipment
                  and supplies are authorized only when the items are ordered by
                  physicians and meet coverage requirements. Therefore, claims with
                  invalid or inactive UPINs should not be paid, and Medicare requires
                  that they be returned to the supplier.

                  In 2001, the Office of Inspector General reported that Medicare paid
                  almost $91 million in 1999 for medical equipment and supply claims
                  with invalid or inactive UPINs, including almost $8 million for claims
                  with UPINs of deceased physicians. Based on that report, CMS stated
                  that it had initiated system changes to prevent payment of claims
                  submitted with deceased physicians’ UPINs. CMS also stated that it
                  planned to implement changes to prevent payment of claims with
                  invalid or inactive UPINs.



OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   i
E X E C U T I V E                        S U             M M A R Y


                   Medicare Claims Processing Using NPIs
                   The Administrative Simplification provisions of the Health Insurance
                   Portability and Accountability Act of 1996 required CMS to create NPIs
                   to replace UPINs for Medicare claims processing. Both physicians and
                   suppliers must apply for and obtain NPIs from CMS.

                   From May 2005 to May 2008, Medicare accepted medical equipment and
                   supply claims that included UPINs only, NPIs only, or a combination of
                   both. However, as of May 23, 2008, suppliers are required to include
                   their own NPIs in the primary provider field on claims, and the
                   referring physicians’ NPIs in the secondary provider field. On the date
                   when the requirement went into effect, CMS noted a large number of
                   rejected claims because suppliers were not submitting referring
                   physician NPIs. In response, CMS instituted a temporary provision
                   that allows suppliers who, after reasonable effort, cannot obtain
                   referring physicians’ NPIs to instead use their own NPI in the
                   secondary provider field. As of December 2008, CMS had not
                   discontinued this provision.

                   We determined the extent to which Medicare paid medical equipment
                   and supply claims in 2007 submitted with invalid or inactive UPINs,
                   including UPINs of deceased physicians, or invalid NPIs of referring
                   physicians who ordered medical equipment and/or supplies for Medicare
                   beneficiaries. We did not determine the extent to which providers of
                   medical equipment and supplies who received Medicare payments may
                   have submitted claims with invalid or inactive provider identification
                   numbers.

                   We considered UPINs and referring physician NPIs that had never been
                   assigned by CMS to be invalid and UPINs associated only with inactive
                   practice settings to be inactive.


                   FINDINGS
                   Medicare allowed over $6 million for medical equipment and supply
                   claims with invalid referring physician UPINs in 2007.
                   Medicare-allowed amounts for claims with invalid referring physician
                   UPINs totaled $6.1 million. This amount was associated with
                   4,428 invalid UPINs of the 543,841 UPINs submitted on claims in 2007.
                   Of these invalid UPINs, 75 percent (3,335 of 4,428) were associated with
                   less than $1,000 each in Medicare-allowed amounts. However, 10 of
                   these 4,428 invalid UPINs were associated with more than $50,000 each
                   in Medicare-allowed amounts.

 OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   ii
E X E C U T I V E                       S U          M M A R Y


                   Medicare allowed almost $28 million for medical equipment and
                   supply claims with inactive referring physician UPINs in 2007.
                   Medicare-allowed amounts for claims with inactive referring physician
                   UPINs totaled $27.8 million. This amount was associated with
                   18,955 inactive UPINs of the 543,841 UPINs submitted on claims in
                   2007. Of the $27.8 million, over $24 million was associated with UPINs
                   that had been inactive for at least 13 months and $5 million was for
                   claims with dates of service after the dates of death of the referring
                   physicians. Certain Medicare claims may have been legitimately
                   associated with UPINs that had been inactive for less than 13 months.
                   However, claims with UPINs that had been inactive for over 13 months
                   indicate that the UPINs were inactive on the date the rental began and,
                   therefore, should not have been paid.
                   Medicare allowed over $300,000 for medical equipment and supply
                   claims with invalid referring physician NPIs in 2007. Medicare-
                   allowed amounts for claims with invalid referring physician NPIs totaled
                   $333,432. This amount represented 313 invalid NPIs of the 475,535 NPIs
                   submitted on claims in 2007. All but two of these invalid NPIs followed
                   the correct CMS format.


                   RECOMMENDATIONS
                   Prior to the full implementation of NPIs in May 2008, we analyzed
                   Medicare medical equipment and supply claims from 2007 to determine
                   whether CMS had addressed our earlier findings that Medicare paid
                   claims with invalid or inactive UPINs, including UPINs belonging to
                   deceased physicians. Although the Medicare-allowed amount for claims
                   with invalid or inactive UPINs that should not have been paid has
                   declined since 1999, we found that Medicare continued to pay for claims
                   with invalid or inactive UPINs. Medicare allowed almost $34 million in
                   2007 for claims with invalid or inactive UPINs, including $5 million for
                   claims with deceased physicians’ UPINs. We also found that Medicare
                   allowed over $300,000 for claims with invalid referring physician NPIs.

                   As CMS completes the transition from UPINs to NPIs, opportunities
                   exist to address vulnerabilities highlighted in our earlier work and
                   again in this study. Based on our findings and discussions with CMS
                   staff, we have concerns that invalid and inactive physician identifiers
                   may continue to be a problem with NPIs. Although CMS appears to be
                   implementing system changes that will verify that NPIs are submitted
                   in the correct format, it is unclear whether there will be controls to


 OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   iii
E   X   E C     U T   I     V      E           S      U     M        M       A      R Y


                          identify NPIs that have not been assigned or that are inactive. For this
                          reason, we remain concerned that longstanding vulnerabilities, as well
                          as new challenges, may affect the integrity of the NPI claims-processing
                          system as it moves forward.

                          To address these concerns, we recommend that CMS:
                          Determine why Medicare claims with identifiers associated with deceased
                          referring physicians continue to be paid.

                          Implement claims-processing system changes to ensure that NPIs for
                          both referring physicians and suppliers listed on medical equipment and
                          supply claims are valid and active.

                          Emphasize to suppliers the importance of using accurate NPIs for both
                          referring physicians and suppliers when submitting Medicare claims.

                          Determine the earliest date to end the provision that allows suppliers to
                          submit claims without referring physician NPIs while maintaining
                          beneficiary access to services.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with our recommendations and stated that it has taken
                          steps, incorporating the recommendations from this report, toward
                          correcting the problems we identified.

                          In addition, CMS provided general and technical comments on our
                          draft report. We have modified language in the report to address
                          these comments as appropriate.




    OEI-04-08-00470       M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   iv
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 6
                    Medicare allowed over $6 million for claims with
                    invalid UPINs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                    Medicare allowed almost $28 million for claims with
                    inactive UPINs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                    Medicare allowed over $300,000 for claims with
                    invalid NPIs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


         RECOMMENDATIONS ...................................... 8
                    Agency Comments and Office of Inspector General Response . . . . 9




         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the extent to which Medicare paid medical equipment and
                  supply claims in 2007 submitted with (1) invalid or inactive unique
                  physician identification numbers (UPIN) or (2) invalid referring
                  physician national provider identifiers (NPI).


                  BACKGROUND
                  Medicare beneficiaries are eligible to receive medical equipment and
                  supplies deemed medically necessary by a physician under Medicare
                  Part B coverage. In 2007, Medicare allowed almost $11 billion for
                  medical equipment and supplies. The Consolidated Omnibus Budget
                  Reconciliation Act of 1985 required the Centers for Medicare &
                  Medicaid Services (CMS) to establish UPINs for all physicians who
                  provide services to Medicare beneficiaries. 1 A physician was allowed to
                  obtain only one UPIN, but a UPIN may have been associated with more
                  than one practice setting (i.e., location where a physician provides
                  services). Until May 2008, CMS maintained a UPIN Registry
                  containing information on all assigned UPINs.
                  Medicare Claims Processing Using UPINs
                  Providers of medical equipment and supplies obtain reimbursement for
                  items that they provide to Medicare beneficiaries by submitting claims
                  to the CMS contractors servicing their areas. Billing suppliers
                  identified themselves on claims using a provider identification number.
                  Medicare instructions also required suppliers to provide the UPIN of the
                  referring physician (i.e., the physician who ordered the equipment
                  and/or supplies) on claims. 2 Medicare payments for medical equipment
                  and supplies are authorized only when the items are ordered by
                  physicians and meet coverage requirements. Therefore, claims with
                  invalid or inactive UPINs should not be paid, and Medicare requires
                  that they be returned to the supplier. 3 4 We considered UPINs that had


                    1 CMS also issued UPINs to doctors of osteopathy, limited licensed practitioners, and
                  some nonphysician practitioners.
                     2 CMS, “Medicare Claims Processing Manual,” Ch. 1 § 80.3.2.1.2, Rev. 1328. Available
                  online at http://www.cms.hhs.gov/manuals/downloads/clm104c01.pdf. Accessed on August
                  5, 2008.
                      3 Ibid.
                      4 Certain Medicare claims may have been legitimately associated with UPINs that had
                  been inactive for less than 13 months. However, claims with UPINs that had been inactive
                  for over 13 months indicate that the UPINs were inactive on the date the rental began and,
                  therefore, should not have been paid.

OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   1
I N T R O D        U C T            I O N


                    never been assigned by CMS to be invalid and UPINs associated only
                    with inactive practice settings to be inactive.

                    In 2001, the Office of Inspector General (OIG) reported that Medicare
                    paid almost $91 million in 1999 for medical equipment and supply
                    claims with invalid or inactive UPINs, including almost $8 million for
                    claims with UPINs of deceased physicians. 5 OIG recommended that
                    CMS revise its claims-processing systems to ensure that UPINs listed
                    on medical equipment and supply claims are valid and active. In
                    response to this recommendation, CMS issued two sets of instructions
                    for system changes to its contractors to deny claims submitted with
                    deceased physicians’ UPINs. CMS also stated that it planned to
                    implement changes to prevent payment of claims with invalid or
                    inactive UPINs. As of July 2008, CMS had not taken further action to
                    address the issue of invalid and inactive UPINs.
                    Medicare Claims Processing Using NPIs
                    The Administrative Simplification provisions of the Health Insurance
                    Portability and Accountability Act of 1996 required CMS to create NPIs
                    to replace UPINs for Medicare claims processing. Both physicians and
                    suppliers must apply for and obtain NPIs from CMS. 6 NPIs, as well as
                    UPINs, are valuable program integrity safeguards. Medicare relies on
                    physicians and other health care providers to ensure that only medically
                    necessary medical equipment and/or supplies are ordered. When
                    suppliers put UPINs or referring physicians’ NPIs on claims, they are
                    indicating that physicians have verified the need for beneficiaries to
                    obtain equipment and/or supplies. In addition, UPINs and NPIs enable
                    CMS to determine who prescribed the equipment and/or supplies as
                    part of any postpayment reviews.
                    From May 2005 to May 2008, Medicare accepted medical equipment and
                    supply claims that included UPINs only, NPIs only, or a combination of
                    both. 7 As of May 23, 2008, suppliers are required to include their own
                    NPIs in the primary provider field on claims and the referring

                        5 OEI-03-01-00110, “Medical Equipment and Supply Claims With Invalid or Inactive

                    Physician Numbers.”
                        6 CMS launched an online NPI registry in September 2007. See “Data Dissemination”
                    for additional details. Available online at
                    http://www.cms.hhs.gov/NationalProvIdentStand/06a_DataDissemination.asp. Accessed on
                    August 12, 2008.
                      7 CMS. “MLN Matters Bulletin,” Number MM5595. Available online at
                    http://www.cms.hhs.gov/MLNMattersArticles/downloads/MM5595.pdf. Accessed on
                    August 7, 2008. This bulletin states that Medicare will accept claims with legacy numbers
                    only, NPIs only, or a combination. UPINs are a subset of legacy numbers.

 OEI-04-08-00470    M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   2
I N T R O D        U C T            I O N


                   physicians’ NPIs in the secondary provider field. 8 9 On the date when
                   the requirement went into effect, CMS noted a large number of rejected
                   claims because suppliers were not submitting referring physician
                   NPIs. 10 In response, CMS instituted a temporary provision that allows
                   suppliers who, after reasonable effort, cannot obtain referring
                   physicians’ NPIs to instead use their own NPIs in the secondary
                   provider field. 11 As of December 2008, CMS had not discontinued this
                   provision.
                   Related OIG Work
                   In addition to issuing the 2001 report previously mentioned, OIG has
                   issued several reports related to UPINs. These reports address the
                   accuracy of UPIN data as well as the use of invalid or inactive UPINs on
                   claims for medical equipment and supplies.

                   In a 1999 report, OIG included recommendations that the Health Care
                   Financing Administration (now CMS) ensure that UPINs for inactive
                   providers are deactivated. 12 In a 2001 report, OIG recommended that
                   CMS take steps to validate and update UPIN Registry data. 13

                   In 2002, OIG recommended that CMS perform a targeted review of
                   medical equipment and supply claims ordered using surrogate UPINs
                   (i.e., temporary, substitute UPINs). 14 OIG also recommended that CMS
                   continue to educate suppliers and physicians that accurate UPINs must
                   be used on claims and that surrogate UPINs should not be used if the
                   referring physicians had permanent UPINs. Finally, in 2003, OIG
                   issued a report including a recommendation for CMS to correct
                   inaccurate and incomplete information in the UPIN Registry. 15



                       8 “Overview: National Provider Identifier Standard,” p. 1. Available online at
                   http://www.cms.hhs.gov/NationalProvIdentStand/01_Overview.asp#TopOfPage. Accessed
                   on July 23, 2008.
                      9 “CMS Communications: National Provider Identifier Standard,” p. 1. Available online
                   at http://www.cms.hhs.gov/NationalProvIdentStand/02_WhatsNew.asp#TopOfPage.
                   Accessed on July 23, 2008.
                       10 Ibid.
                       11 Ibid.
                       12 OEI-07-98-00410, “Accuracy of Unique Physician Identification Number Data.”
                       13 OEI-03-99-00131, “Inaccuracies in the Unique Physician Identification Number
                   Registry: Incorrect Addresses for Mental Health Services Providers.”
                       14 OEI-03-01-00270, “Durable Medical Equipment Ordered With Surrogate Physician
                   Identification Numbers.”
                       15 OEI-03-01-00380, “Accuracy of Unique Physician/Practitioner Identification Number
                   Registry Data.”

 OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   3
I N T R O D        U C T            I O N



                    METHODOLOGY
                    We determined the extent to which Medicare paid medical equipment
                    and supply claims in 2007 submitted with invalid or inactive UPINs,
                    including UPINs of deceased physicians, or invalid NPIs of referring
                    physicians who ordered medical equipment and/or supplies for Medicare
                    beneficiaries. We did not determine the extent to which providers of
                    medical equipment and supplies who received Medicare payments may
                    have submitted claims with invalid or inactive provider identification
                    numbers.
                    Data Collection and Analysis
                    We obtained a file containing 100 percent of 2007 medical equipment
                    and supply claims from CMS’s National Claims History File. We also
                    obtained a UPIN database extracted from the UPIN Registry. 16 The
                    UPIN database is composed of two files: one file with UPINs associated
                    with active practice settings in 2007 and another file with UPINs
                    associated with inactive practice settings in 2007. In addition, we spoke
                    with CMS officials regarding NPIs and obtained the NPI directory from
                    the CMS Web site on June 9, 2008.

                    To identify claims with invalid or inactive UPINs, we first compared the
                    files of UPINs associated with active and inactive practice settings
                    contained in the CMS UPIN database. We considered UPINs that were
                    associated with at least one active practice setting to be active. We
                    considered UPINs associated only with inactive practice settings to be
                    inactive. This resulted in a list of active UPINs and a list of inactive
                    UPINs for further comparison.

                    We then compiled a list of UPINs appearing on the claims under review
                    and compared them to the lists of active and inactive UPINs. We
                    considered all UPINs that appeared on the claims but not on either list
                    of active or inactive UPINs to be invalid.

                    We also compared the list of UPINs appearing on the claims under
                    review to the list of inactive UPINs. We considered all UPINs that
                    appeared on claims on which the dates of service occurred after the most
                    recent practice setting inactivation dates to be inactive.
                    Once we identified claims with invalid or inactive UPINs, we
                    determined whether they also had valid referring physician NPIs as

                       16 According to CMS, the UPIN database was retired in June 2007 when CMS ceased
                    issuing UPINs. Although the UPIN files remain available, the information in the files has
                    not changed since June 2007.

 OEI-04-08-00470    M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   4
I N T R O D        U C T            I O N



                    listed in the 2008 NPI directory. We excluded all claims with
                    invalid/inactive UPINs and valid referring physician NPIs from further
                    analysis (this group included surrogate [i.e., temporary] UPINs). From
                    the remaining claims, we identified claims with invalid referring
                    physician NPIs.

                    To identify claims with invalid referring physician NPIs, we compiled a
                    list of NPIs on the claims under review and compared them to the 2008
                    NPI directory. We considered all claims with NPIs that appeared on the
                    claims but not in the directory to be invalid.

                    We calculated the total allowed amounts for (1) claims with invalid
                    UPINs (including those with no UPIN) and no referring physician NPIs,
                    (2) claims with inactive UPINs and no referring physician NPIs, and
                    (3) claims with invalid referring physician NPIs and invalid/inactive
                    UPINs (including those with no UPIN).

                    For claims with inactive UPINs and no referring physician NPIs, we
                    also calculated the total allowed amount according to how long a UPIN
                    had been inactive. We determined how long a UPIN had been inactive
                    by comparing the date of service on a claim to the most recent practice
                    setting inactivation date, as listed in the UPIN database.

                    In addition, we determined whether and/or when a referring physician
                    had died using the file of inactive UPINs that we obtained from CMS.
                    Next, we determined the total allowed amount for claims with inactive
                    UPINs, no referring physician NPIs, and dates of service after the date
                    of death of the referring physician.

                    For claims with invalid referring physician NPIs, we also determined
                    whether the NPIs followed the correct CMS format of 10 digits starting
                    with a 1, 2, 3, or 4.
                    Limitations
                    We could not determine the extent to which claims with valid referring
                    physician NPIs and dates of service after the death of the referring
                    physician may have been paid. The date of death information required
                    to complete this analysis was not available at the time of our review.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-04-08-00470    M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   5
 F   I N D I N G        S
Δ        F I N D I N G S



  Medicare allowed over $6 million for medical             Medicare-allowed amounts for
    equipment and supply claims with invalid               claims with invalid referring
            referring physician UPINs in 2007              physician UPINs totaled
                                                           $6.1 million. 17 This amount was
                       associated with 4,428 invalid UPINs out of the 543,841 UPINs
                       submitted on claims in 2007. Of the invalid UPINs, 75 percent (3,335 of
                       4,428) were associated with less than $1,000 each in Medicare-allowed
                       amounts. However, 10 of these 4,428 invalid UPINs were associated
                       with more than $50,000 each in Medicare-allowed amounts, including
                       three invalid UPINs that were associated with more than $100,000
                       each.



Medicare allowed almost $28 million for medical                Medicare-allowed amounts for
     equipment and supply claims with inactive                 claims with inactive referring
              referring physician UPINs in 2007                physician UPINs totaled
                                                               $27.8 million. 18 This amount was
                       associated with almost 19,000 inactive UPINs out of the 543,841 UPINs
                       submitted on claims in 2007. Of the inactive UPINs, 94 percent
                       (17,852 of 18,955) had been inactive for at least 13 months and
                       accounted for a total of $24.8 million in Medicare-allowed amounts. 19
                       Thirty-five UPINs listed on medical equipment and supply claims had
                       been inactive for more than 17 years each by the claims’ dates of
                       service. 20
                       Certain Medicare claims may have been legitimately associated with
                       UPINs that had been inactive for less than 13 months. Suppliers may
                       rent certain medical equipment, such as hospital beds, for as long as
                       13 consecutive months to Medicare beneficiaries. 21 A physician may


                          17 The $6.1 million represents allowed amounts for claims with invalid UPINs and no
                       referring physician NPIs.
                          18 The $27.8 million represents allowed amounts for claims with inactive UPINs and no
                       referring physician NPIs.
                          19 There were a total of 18,962 inactive UPINs submitted on the claims under review, but
                       there was insufficient information in the CMS UPIN directory to determine the length of
                       time during which 7 of these UPINs had been inactive. Therefore, we excluded these
                       7 UPINs for a total of 18,955 inactive UPINs.
                           20 No claim had a UPIN that had been inactive 18 years or longer.
                           21 Deficit Reduction Act of 2005, S.1932 § 5101. Available online at
                       http://thomas.loc.gov/cgi-bin/query/F?c109:5:./temp/~c109ctUKD2:e104283. Accessed on
                       August 22, 2008.

     OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   6
F   I N D I N G        S


                      have written a prescription for an item for 13 months and retired or
                      died during the prescription period. However, claims with UPINs that
                      had been inactive for over 13 months indicate that the UPINs were
                      inactive on the dates when the rentals began and, therefore, should not
                      have been paid.
                      Medicare allowed $5 million for claims with deceased physicians’ UPINs
                      Of the $27.8 million that Medicare allowed for claims with inactive
                      UPINs, $5 million was for claims with dates of service after the
                      referring physicians’ dates of death. The date of death information for
                      these claims was contained in the CMS UPIN Registry. However, CMS
                      paid the claims with the deceased physicians’ UPINs.
                      Table 1 shows timeframes for how long a physician had been deceased
                      before the date of service and the allowed amount associated with each
                      timeframe.


                                                            TABLE 1
                            Length of Time Physician Had Been       Allowed                                               Percentage of Total
                            Deceased Before the Date of Service     Amount                                                  Allowed Amount

                            0 to 12 months                                                                   $870,465                      17.2%
                            12 to 15 months                                                                  $368,715                          7.3%
                            15 to 24 months                                                                $1,223,630                      24.1%
                            2 to 3 years                                                                   $1,293,517                      25.5%
                            3 to 4 years                                                                     $714,381                      14.1%
                            4 to 5 years                                                                     $225,661                          4.5%
                            Over 5 years                                                                     $372,681                          7.4%
                                    TOTAL                                                                 $5,069,050                    100.1%*
                         * Total exceeds 100 percent because of rounding.




    Medicare allowed over $300,000 for medical              Medicare-allowed amounts for
     equipment and supply claims with invalid               claims with invalid referring
                                                            physician NPIs totaled
               referring physician NPIs in 2007
                                                            $333,432. 22 This amount was
                      associated with 313 invalid NPIs of the 475,535 NPIs submitted on
                      claims in 2007. All but two of the invalid NPIs followed the correct
                      CMS format.




                          22 The $333,432 represents claims with invalid referring physician NPIs and invalid or
                      inactive UPINs.

    OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS          7
Δ   R E C O M M E N D A T I O N S




                  UPINs and NPIs are valuable program integrity safeguards that
                  indicate that physicians have verified the need for beneficiaries to
                  obtain medical equipment and/or supplies. In addition, they enable
                  CMS to determine who prescribed the equipment and/or supplies as
                  part of any postpayment reviews.

                  Prior to the full implementation of NPIs in May 2008, we analyzed
                  Medicare medical equipment and supply claims from 2007 to determine
                  whether CMS had addressed our earlier findings that Medicare paid
                  claims with invalid or inactive UPINs, including UPINs associated with
                  deceased physicians. Although the Medicare-allowed amount for claims
                  with invalid or inactive UPINs that should not have been paid has
                  declined since 1999, we found that Medicare continued to pay for claims
                  with invalid or inactive UPINs. Medicare allowed almost $34 million in
                  2007 for claims with invalid or inactive UPINs, including $5 million for
                  claims with deceased physicians’ UPINs. We also found that Medicare
                  allowed over $300,000 for claims with invalid referring physician NPIs.

                  As CMS completes the transition from UPINs to NPIs, opportunities
                  exist to address vulnerabilities highlighted in our earlier work and
                  again in this study. Based on our findings and discussions with CMS
                  staff, we have concerns that invalid and inactive physician identifiers
                  may continue to be a problem with NPIs. Although CMS appears to be
                  implementing system changes that will verify that NPIs are submitted
                  in the correct format, it is unclear whether there will be controls to
                  identify NPIs that have not been assigned or that are inactive. For this
                  reason, we remain concerned that longstanding vulnerabilities, as well
                  as new challenges, may affect the integrity of the NPI claims-processing
                  system as it moves forward.

                  To address these concerns, we recommend that CMS:
                  Determine Why Medicare Claims With Identifiers Associated With
                  Deceased Referring Physicians Continue To Be Paid.

                  Implement Claims-Processing System Changes To Ensure That NPIs for
                  Both Referring Physicians and Suppliers Listed on Medical Equipment
                  and Supply Claims Are Valid and Active.

                  Emphasize to Suppliers the Importance of Using Accurate NPIs for Both
                  Referring Physicians and Suppliers When Submitting Medicare Claims.



OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   8
R   E C O       M M E N D A T                          I O N               S


                      Determine the Earliest Date To End the Provision That Allows Suppliers To
                      Submit Claims Without Referring Physician NPIs While Maintaining
                      Beneficiary Access to Services.

                      In response to a large number of rejected Medicare claims that occurred
                      after CMS required suppliers to replace UPINs with NPIs on claims, CMS
                      instituted a temporary provision that allows suppliers to use their own
                      NPIs in place of the referring physicians’ NPIs. The provision became
                      effective in June 2008, after the analysis review of this study. However,
                      this provision presents a claims-processing vulnerability similar to what
                      we identified in 2007 with suppliers submitting claims with invalid or
                      inactive UPINs.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with our recommendations and stated that it has
                      taken several steps, incorporating the recommendations from this
                      report, toward correcting the problems we identified.

                      CMS stated that it currently deactivates Medicare billing privileges of
                      any provider that has not billed the Medicare program for
                      12 consecutive months. In addition, CMS stated that it has developed
                      various procedures designed to ensure that the Medicare billing
                      privileges of deceased physicians are promptly terminated.

                      CMS also stated that it has developed procedures to reject claims if
                      the referring physician is not enrolled in Medicare and is not of the
                      specialization that can refer in the Medicare program. Finally, CMS
                      stated that it has conducted substantial outreach to the provider
                      community and has instructed its contractors to perform outreach to
                      medical societies and organizations, stressing the need for them to
                      inform CMS contractors on the deaths of physicians participating in
                      Medicare.

                      However, CMS did not specifically address our recommendation that
                      it determine the earliest date to end the provision that allows
                      suppliers to submit claims without referring physician NPIs while
                      maintaining beneficiary access to services.

                      In addition to concurring with our recommendations, CMS provided
                      general and technical comments on our draft report. In its general
                      comments, CMS recommended that OIG clarify that the UPINs at
                      issue in our draft report were those used to identify referring

    OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   9
R     E C O       M M E N D A T                         I O N                 S



                      physicians, not the suppliers who received the Medicare payments.
                      We have incorporated additional clarifying language to address
                      CMS’s concerns.

                      Finally, we have modified language in the report to address CMS’s
                      technical comments as appropriate. The full text of CMS’s comments
                      is provided in the Appendix.




    OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   10
Δ      A P P E N D I X


                                         Agency Comments




OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   11
A P P E N D        I X




 OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   12
A P P E N D        I X




 OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   13
Δ      A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Dwayne F. Grant,
                  Regional Inspector General for Evaluation and Inspections in the
                  Atlanta regional office.

                  Mary-Elizabeth Harmon served as the team leader for this study.
                  Other principal Office of Evaluation and Inspections staff from the
                  Atlanta regional office who contributed to the report include Gerius
                  Patterson; central office staff who contributed include Eddie Baker, Jr.,
                  David Graf, and Rita Wurm. Robert A. Vito from the Philadelphia
                  regional office also contributed.




OEI-04-08-00470   M E D I C A R E PAY M E N T S   FOR   C L A I M S W I T H I N VA L I D   OR   INACTIVE REFERRING PHYSICIAN IDENTIFIERS   14
